Sa
\

@OCKLE

: E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-493

YSLETA DEL SUR PUEBLO, THE TRIBAL COUNCIL,
THE TRIBAL GOVERNOR MICHAEL SILVAS
or his SUCCESSOR,
Petitioners,
v.
STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2993 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of January, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

fy Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska A a Z lL,
; RENEE J. GOSS 9. ¢ dedcau- hs

Notary Public Affiant 40563
